U.S. DEPARTMENT OF COMMERCE
          Office of Inspector General




      National Institute of Standards
                     and Technology

         FY 2009 FISMA Assessment of
      Application Systems and Databases
                          (NIST 183-06)

     Final Inspection Report No. OSE-19512/August 2009




                             Office of Audit and Evaluation
                                           UNITEO STATES OEPARTMENT OF COMMERCE
                                           Office of Inspector General
                                           Washington. 0 C 20230




   AUG -7 2009


MEMORANDUM FOR:	 Dr. Patrick Gallagher
                 Deputy Director
                 National Institute of Standards and Technology



FROM:
                                 ~~~
                             Allen Crawley
                             Assistant Inspector General
                              for Systems Acquisition and IT Security

SUBJECT:	                    National Institute of Standards and Technology
                             FY 2009 FISMA Assessment ofApplication Systems and
                             Databases (NIST 183-06)
                             Final Inspection Report No. OSE-19512

This report presents the results of our Federal Information Security Management Act
(FISMA) review ofNIST's certification and accreditation of the Application Systems and
Databases (ASD) system.

We found that NIST's C&A process provided the authorizing official sufficient
information to make a credible risk-based decision to approve system operation. In the
report, we note the need for minor improvements in security planning, secure
configuration settings, and security control assessments. Our assessment of ASD security
controls found vulnerabilities requiring remediation.

In its response to our draft report, NIST concurred with our findings and
recommendations with several exceptions related to specific details. The response is
summarized in the appropriate sections of the report where we also address the minor
points of disagreement. NIST's response is included in its entirety as appendix C.

We request that you provide us with an action plan describing the actions you have taken
or plan to take in response to our recommendations within 60 calendar days of the date of
this report. A plan of action and milestones should be used to communicate the plan as
required by FISMA.

We appreciate the cooperation and courtesies extended to us by your staff during our
evaluation. If you would like to discuss any of the issues raised in this report, please call
me at (202) 482-1855.
Attachment

cc:	   Suzanne Hilding, chief information officer, u.S. Department of Commerce
       Simon Szykman, chief information officer, NIST
       L. Dale Little, chief, Applications Systems Division, NIST
       Kenneth R. Glenn, chief, Information Technology Security and Networking
           Division, NIST
                     OIG FY 2009 FISMA Assessment


Listing of Abbreviated Terms & Acronyms


ASD           Application Systems and Databases
C&A           Certification and Accreditation
CGI           Common Gateway Interface
COTS          Commercial off-the-shelf
CSAM          Cyber Security Assessment and Management
DISA          Defense Information Systems Agency
FIPS          Federal Information Processing Standards
FISMA         Federal Information Security Management Act of 2002


IT            Information Technology
ITSO          Information Technology Security Officer
NIST          National Institute of Standards and Technology
OCIO          Office of the Chief Information Officer
OIG           Office of Inspector General
OS            Operating System
POA&M         Plan of Action & Milestones
SSO           System Security Officer
SSP           System Security Plan
SQL           Structured Query Language




                                  Page 1

                                OIG FY 2009 FISMA Assessment




Synopsis of Findings

    •   Revised system security plan was generally adequate, but security planning process
        needs improvement.

    •   Secure configuration settings were not established for all IT products.

    •   Control assessments produced reliable information for assessing risk, but some
        minor improvements are needed.

    •   OIG assessments found vulnerabilities requiring remediation.

Conclusion

    •   While there were deficiencies with security planning prior to the certification phase,
        NIST’s certification and accreditation process, in particular its assessment of security
        controls, produced sufficient information for the authorizing official to make a credible,
        risk-based decision to approve system operation. NIST should address the minor
        deficiencies we identified as part of its continuous monitoring of system security.



Summary of NIST Response

In its response to our draft report, NIST concurred with our findings and recommendations with
several exceptions on select points in our report. It did not concur with the part of our finding
that noted the security plan had been written by the certification team. NIST also did not concur
with our security control assessment finding that there was insufficient disk space for
logs. And it did not concur with one of our examples of deficiencies with the NIST certification
team’s security control assessment.

One of NIST’s remarks with respect to custom secure configuration checklists for
suggests its disagreement, in part, with our recommendation that NIST establish secure
settings for all IT products in the system. And NIST’s remarks on two items in our tables were
non-responsive to the deficiencies we identified.

NIST also described actions it has taken or plans to take to address our recommendations.

NIST’s written response is included in its entirety as appendix C of this report.

OIG Comments

NIST generally concurred with our findings and recommendations. We address several specific
disagreements in the applicable sections of the report.




                                             Page 2
                              OIG FY 2009 FISMA Assessment



Introduction

 The Application Systems and Databases system (ASD) consists solely of software. The
 system includes database containers, database management systems, and web application
 servers that support other NIST systems. ASD also includes applications that provide data
 object translation, data warehousing, and report generation capabilities. The hardware and
 associated operating systems hosting ASD software are not in the accreditation boundary
 and instead included in other NIST systems.

 NIST has categorized ASD as a
                                                                                           .

 NIST initiated the certification and accreditation process in August 2007. Certification was
 completed in late December 2007 and, after an internal quality assurance and management
 review, the CIO authorized system operation on May 11, 2008.




                                          Page 3
                                 OIG FY 2009 FISMA Assessment

Findings and Recommendations

 1. Revised System Security Plan Was Generally Adequate, but Security
    Planning Process Needs Improvement
  NIST first developed a single security plan for certifying and accrediting ASD. This initial
  plan covered the “parent” system only, consisting primarily of          products. NIST
  ultimately prepared three security plans for this system’s accreditation—one for the parent
  system, and two subsystem plans for an application server and reporting tools.

  •   The initial system security plan did not fully address controls for the parent system and
      omitted subsystems altogether.
        o The initial security plan did not include major software components:

        o   No control enhancements required for the system were described.
        o   Many control descriptions were deficient. (See table 1.)
               Several controls were not accurately or completely described.
               Several controls for an application               were not described.
               Common and hybrid controls were not correctly identified.
        o   Despite these deficiencies, the senior agency information security officer and the
            authorizing official formally accepted the initial security plan indicating the set of
            controls described “meets the security requirements for the system,” and gave
            approval for the C&A “process to begin.” NIST then began security certification
            activities.
        o   A hardware server was removed from the accreditation boundary sometime
            during the security certification (system now consists of software only).
               NIST SP 800-37, Guide for the Security Certification and Accreditation of
                    Federal Information Systems, calls for accreditation boundaries to be
                    established before the certification phase begins.

  •    Along with assessing controls, NIST certification team members rewrote the parent
       security plan and created new subsystem security plans that served as the basis for
       the accreditation decision.
         o NIST told us that the system security officer and other administrators participated
            in the development of the final plans. However, the certification team’s authorship
            of the security plans raises the possibility that security control requirements were
            solely based on security settings and implementations discovered during control
            assessments rather than a risk-based process to determine the necessary
            protections for information in ASD. In fact, many control descriptions in the
            revised security plan are direct quotes from the control assessment.
                Scoping and tailoring control requirements should be driven by
                   consideration of risk to the confidentiality, integrity, and availability of the
                   information in the system. While certification teams should consult with
                   system owners about the adequacy of the security plan, it is the system
                   owner’s role to maintain the plan based on input from various managers
                   with system responsibilities.

  •    Revised system security plans generally addressed all required elements of the NIST
       SP 800-53 controls for each system component. However, some control descriptions
       need improvement. (See table 2.)




                                              Page 4
                                 OIG FY 2009 FISMA Assessment



Recommendations

  1.1 NIST authorizing officials and the senior agency information security officer should
      ensure that the scoping and tailoring of security controls and the security plan
      descriptions of system-specific implementations are completed before entering the
      certification phase so that control assessments have appropriate standards against
      which controls can be measured.

  1.2 NIST should rectify the deficiencies identified in table 2.




NIST Response

NIST concurred with this finding and our recommendations. NIST indicated it would ensure
future initial security plans include sufficient detail. However, it took exception to the part of our
finding that discusses the certification team’s involvement in writing the revised security plans.
NIST suggested that the certification team’s involvement was less than we depicted—NIST said
a member only provided assistance by rewriting some parts—and that security requirements
were “defined, reviewed, and approved” by NIST managers prior to the accreditation decision.

NIST indicated it had remediated or planned to remediate the deficiencies in the revised
security plans we identified in table 2.

OIG Comments

NIST’s depiction of the certification team’s involvement is different from what we learned during
the course of our evaluation. The ASD system security officer told us that he had prepared an
initial draft of the parent system plan and then “turned it over” to the certification team. The
team member who rewrote much of the parent plan and wrote the subsystem plans also did
much of the testing for the security certification. When we met him, he told us he wrote the
plans after the security certification. And, as we note in the finding, many of the descriptions of
controls in the revised plans were direct quotes from the security control assessment.

We acknowledge what NIST told us during the evaluation—that the writing of the plans was an
iterative process between the certification team and the system security officer and both worked
toward agreed-upon descriptions of controls. This aspect of our finding was merely to caution
NIST that its approach deviated from the process described in NIST SP 800-37 and, as
discussed in our finding, could result in a less-than-adequate determination of security
requirements.




                                              Page 5
                                  OIG FY 2009 FISMA Assessment



2. Secure Configuration Settings Were Not Established for All IT Products
    Background: The Department’s IT security policy and NIST SP 800-53 require establishing
    and assessing secure configuration settings for IT products, which include operating
    systems for system components (such as servers, desktops, laptops, routers, and
    switches) and applications (such as e-mail, web, VPN, firewall, intrusion detection,
    database, and antivirus). FISMA and OMB guidance also highlight the importance of
    secure configuration settings. Implementing and maintaining secure configuration settings
    is one of the most effective ways of negating threats.

    •   Secure configuration settings were established for the                       but not for
        other significant applications in the system.
         o
              have standardized secure configuration checklists available. (Checklists provide
              predefined secure configuration settings that can be used to establish system-
              specific settings.)
         o NIST explained that a program-level POA&M exists to address the need to
              develop secure configuration checklists for applications. However, this POA&M
              (#26334 in CSAM) was closed June 30, 2008, without developing any additional
              secure configuration checklists applicable to ASD applications.
         o To illustrate the importance of utilizing secure configuration checklists, we
              assessed configuration settings for two of the system’s
                                            ) against the Defense Information Systems Agency’s
              (DISA)                                        security checklist.
                 We selected 24 technical settings with significant impact (DISA’s category
                           1
                     1 or 2 ) from the checklist.
                       •                results included 10 category 2 vulnerabilities.
                       •                results included 8 category 2 vulnerabilities. (See table
                            3.)
                 These vulnerabilities might have been resolved if a secure configuration
                     checklist were implemented for this application. (It is also possible that
                     remediation of some vulnerabilities may prevent the successful operation
                     of the legacy applications, but that risk should be identified and
                     appropriately considered according to the methodology in NIST SP 800-70,
                     Security Configuration Checklists Program for IT Products – Guidance for
                     Checklists Users and Developers.)

    •
                                                                  2
        The NIST                    secure configuration checklist was not tailored for the ASD
        system.
         o NIST has a secure configuration checklist for            that serves as an enterprise-
             wide standard. However, NIST told us that prior to assessment, the checklist had
             not been tailored to the system-specific requirements of ASD.
         o NIST’s certification team, along with system administrators, determined the
             appropriate settings for the sample of databases assessed. However,
             configuration settings for other databases in the system need to be established


1
  DISA checklists use severity codes to denote the significance of vulnerabilities resulting from
improperly applied configuration settings. Category 1 vulnerabilities allow an attacker immediate
access into a machine, allow superuser access, or bypass a firewall. Category 2 vulnerabilities
help an attacker access a machine, compromise sensitive data, or bypass a firewall.
2
  NIST SP 800-70, Security Configuration Checklists Program for IT Products, requires system
owners to develop secure configuration checklists (a list of secure configuration settings) for IT
products. NIST OCIO uses the term “guides” as the equivalent of checklists.
                                              Page 6
                              OIG FY 2009 FISMA Assessment


          and documented. This activity, part of tailoring security control requirements, is
          the responsibility of the system owner.

•	   The description, assessment, and remediation of configuration settings were
     inappropriately assigned to security control Baseline Configuration (CM-2).
       o	 CM-2 requires the creation of a baseline configuration that describes the makeup
          of each component and its logical placement within the information system.
       o	 Configuration Settings (CM-6) is the appropriate control. It requires the
          establishment, configuration, documentation, and enforcement of configuration
          settings to the most restrictive mode consistent with operational requirements.

•	   Assessments of                 configuration settings were adequate.
      o	 Assessment results were supported by adequate evidence that was appropriately
         referenced in summary assessment results.
      o	 Settings were evaluated from an appropriate sample of databases.

•	                    configuration vulnerabilities were not adequately remediated.
      o	 During the certification process, NIST added an action item to its POA&M (CSAM
         #26134) to address vulnerabilities identified during the assessment of secure
         configuration settings. The item directs that “staff apply the NIST         Secure
         Configuration Guidelines consistently among all databases by 9/30/2008.” This
         POA&M item was marked completed on September 2, 2008.
            	 NIST OCIO indicated it completed the POA&M based on staff response to
                a status request and that validation testing will be performed at a later date,
                as part of continuous monitoring activities. However, Appendix E of the
                Department’s IT Security Program Policy and Minimum Implementation
                Standards requires the ITSO to have tested the POA&M item’s
                implementation before categorizing the item as complete.
      o	 We found that while NIST has remediated many of the vulnerabilities identified in 

         its assessment, the configuration settings were not applied consistently among 

         the databases we assessed. 

            	 We assessed 86 of NIST’s defined configuration settings for            . NIST
                had identified 33 improperly applied settings in its own assessment. Of
                these 33, we found that 22 were properly applied in the databases we
                assessed. The remaining 11 improper settings NIST identified were
                present on one or more databases included in our assessment. (See table
                4.)
            	 We also found 3 configuration settings (listed below) that NIST had marked
                as “Satisfied” because “the database administrator changed the setting” to
                the correct value, implying that the change had been made at the time of
                the assessment. These settings were either not successfully corrected as
                stated or the incorrect settings were reintroduced following the change.
                  •


                   •

                   •

            	   We also found 6 improper settings NIST did not identify in its security
                 certification. (See table 5.)




                                           Page 7
                                 OIG FY 2009 FISMA Assessment



Recommendations

  NIST should

  2.1 ensure that secure configuration settings are established, implemented, and assessed
      for all IT products in the system accreditation boundary in accordance with NIST SP
      800-70, Security Configuration Checklists Program for IT Products;

  2.2 tailor the NIST 	    secure configuration checklist to the specific operational 

      requirements of ASD; 


  2.3 only close POA&M items after validation testing or examination demonstrates that the
      planned remedial action(s) succeeded; and

  2.4 create a new POA&M item to track the remediation of 	            vulnerabilities in 

      databases.




NIST Response

NIST indicated it concurred with this finding and our recommendations except for an item listed
in table 5 regarding disk space available for             on a particular server. We identified
the remaining available space to be insufficient at 5 MB; NIST noted that the remaining space
was actually 5 GB, which was adequate.

In response to check # 73 of table 5, which deals with the



NIST indicated that it would tailor an       secure configuration checklist for ASD and that it
identifies secure configuration guides for applications when they exist and customizes them for
each situation, depending on functional requirements.

OIG Comments

NIST rightly pointed out our error in interpreting available disk space for the database in
question and we have removed the item from table 5.

With respect to check #73, NIST’s remarks were unresponsive to that particular issue. The




NIST’s explanation for how it defines secure configuration settings for applications suggests
that it will do so only if a secure configuration guide or checklist is available (“when they exist”).
However, Department policy mandates that operating units develop their own secure settings
for IT products if necessary. The current Department IT security policy, updated March 2009,
states that operating units “shall use [NIST] SP 800-70 to develop configuration setting
checklists for IT products for which none are available.” Therefore, we reaffirm recommendation
2.1.




                                              Page 8
                                OIG FY 2009 FISMA Assessment




3. Control Assessments Produced Reliable Information for Assessing
   Risk, but Some Minor Improvements Are Needed

  •    System-specific control assessments were generally adequate.
         o Assessments were performed on an adequate set of system components.
         o Results, in general, were sufficiently supported by evidence.
         o Procedures were adequate to assess security control requirements.

  •    However, three control assessments were not sufficient to assess security control
       implementations. (See table 6.)

  •    Assessment results and analysis for some controls provided by other systems were
       not included in certification assessments. As a result, potential risk associated with
       these controls was not properly identified. (See table 7.)
          o The ASD system inherits remaining vulnerabilities related to controls provided
               by other systems.

Recommendations

  NIST should

  3.1 reassess the controls listed in table 6 as part of continuous monitoring; and

  3.2 present assessment results for controls provided by other systems, as identified in
      table 7, to the authorizing official.



NIST Response

NIST indicated it concurred with this finding and our recommendations. However, NIST did not
agree with one of the security control assessment deficiencies we identified in table 6. NIST
indicated its secure configuration script did check settings related to
                                                      . It acknowledged the documented
assessment result “was lacking sufficient detail” and should have referenced the secure
configuration script. And NIST offered explanations as to why the script identified inconsistent
settings in its databases:


With respect to the     control assessment deficiency, NIST indicated that it “updated the
Parent SSP,                  SSP and           SSP, control      to remediate this
deficiency.”

OIG Comments

Security control assessment involves not just obtaining the necessary data (e.g., through
scripts) but analyzing the data to determine the actual risk involved. In this case, the
certification team, based on an interview and examination of requirements, concluded that this
control            was being effectively implemented in the system. At the same time, the script
data showed that the control was not consistently implemented in ASD databases. Therefore,
the assessment result was not accurate and does represent a deficiency in NIST’s assessment
process. NIST appears to partly recognize the deficiency based on its response indicating it
“will be more explicit when describing how controls are tested.”

                                            Page 9
                                OIG FY 2009 FISMA Assessment


NIST was non-responsive to the          control assessment deficiency identified in table 6.
Updating the security plan is not a corrective action for a deficient control assessment. As the
table indicates, “This control should be assessed where it is implemented. An examination of
the                      for a representative set of system components is necessary to
determine if information system                        .”




                                            Page 10
                                OIG FY 2009 FISMA Assessment


4. OIG Assessments Found Vulnerabilities Requiring Remediation

  As part of OIG’s FY09 FISMA evaluation of ASD, we assessed a targeted set of system
  components to determine if selected security controls are properly implemented. We
  tailored our procedures to the specific control implementations of ASD.

  •    OIG assessments identified several vulnerabilities that need to be addressed. (See
       table 8 for details.) These vulnerabilities include the following:




Recommendation

   4.1 NIST should ensure the vulnerabilities identified in table 8 are added to the system’s
       POA&M and remediated during continuous monitoring.



 NIST Response

 NIST concurred with this finding and recommendation.




                                            Page 11
                                                      OIG FY 2009 FISMA Assessment



Table 1. Deficiencies in Initial Security Plan
Deficiency                                                           Controls
Controls not accurately or completely described




Controls for       application not described




Common and hybrid controls not correctly identified




                                                                Page 12
                                                 OIG FY 2009 FISMA Assessment



Table 2. Deficiencies in Revised Security Plan




                                                                            .




                                                           Page 13

                                                      OIG FY 2009 FISMA Assessment



Table 2. Deficiencies in Revised Security Plan
Control                  Security Plan Description (excerpts)         OIG Comments




                                                                Page 14
                                                      OIG FY 2009 FISMA Assessment



Table 2. Deficiencies in Revised Security Plan
Control                  Security Plan Description (excerpts)         OIG Comments




                                                                Page 15
                                                      OIG FY 2009 FISMA Assessment



Table 2. Deficiencies in Revised Security Plan
Control                  Security Plan Description (excerpts)         OIG Comments




                                                                Page 16
                                                 OIG FY 2009 FISMA Assessment



Table 3                     Vulnerabilities
DISA            DISA Required Setting         OIG Assessment Results            OIG Comments
Vulnerability
Key




                                                           Page 17
                                                 OIG FY 2009 FISMA Assessment



Table 3.                    Vulnerabilities
DISA            DISA Required Setting         OIG Assessment Results            OIG Comments
Vulnerability
Key




                                                           Page 18
                                                 OIG FY 2009 FISMA Assessment



Table 3.                    Vulnerabilities
DISA            DISA Required Setting         OIG Assessment Results            OIG Comments
Vulnerability
Key




                                                           Page 19
                                              OIG FY 2009 FISMA Assessment




Table 4: Persistent Improper Settings in
Checklist NIST Requirement (Full Quotation)                                  OIG Assessment Results
Check #




                                                        Page 20
                                              OIG FY 2009 FISMA Assessment



Table 4: Persistent Improper Settings in
Checklist NIST Requirement (Full Quotation)                                  OIG Assessment Results
Check #




                                                        Page 21
                                              OIG FY 2009 FISMA Assessment



Table 5. Additional Improper Settings in
Checklist NIST Requirement (Full Quotation)                                  OIG Assessment Results
 Check #




                                                        Page 22
                                              OIG FY 2009 FISMA Assessment



Table 5. Additional Improper Settings in
Checklist NIST Requirement (Full Quotation)                                  OIG Assessment Results
 Check #




                                                        Page 23
                                                 OIG FY 2009 FISMA Assessment



Table 6. NIST Security Control Assessment Deficiencies
Control         NIST Assessment NIST Assessment Results (Full Quotation)        OIG Comments
                Procedure (Full
                Quotation)




                                                           Page 24
                                                 OIG FY 2009 FISMA Assessment



Table 6. NIST Security Control Assessment Deficiencies
Control         NIST Assessment NIST Assessment Results (Full Quotation)        OIG Comments
                Procedure (Full
                Quotation)




                                                           Page 25
                                                 OIG FY 2009 FISMA Assessment



Table 6. NIST Security Control Assessment Deficiencies
Control         NIST Assessment NIST Assessment Results (Full Quotation)        OIG Comments
                Procedure (Full
                Quotation)




                                                           Page 26
                                                   OIG FY 2009 FISMA Assessment



Table 7. Controls Lacking Results and Supporting Evidence of Assessments for Other Systems
Control Number               ASD Applications Inheriting     NIST System(s) Implementing the Control
                             Controls




                                                             Page 27

                                                     OIG FY 2009 FISMA Assessment



Table 8. Vulnerabilities Identified by OIG Assessment of Selected Security Controls
   Control                Vulnerability           System                              OIG Assessment Details
                                                 Component




                                                                Page 28
                                                     OIG FY 2009 FISMA Assessment



Table 8. Vulnerabilities Identified by OIG Assessment of Selected Security Controls
   Control                Vulnerability           System                              OIG Assessment Details
                                                 Component




                                                                Page 29
                                                     OIG FY 2009 FISMA Assessment



Table 8. Vulnerabilities Identified by OIG Assessment of Selected Security Controls
   Control                Vulnerability           System                              OIG Assessment Details
                                                 Component




                                                                Page 30
                                OIG FY 2009 FISMA Assessment


Appendix A: Objectives, Scope, and Methodology

To meet the FY 2009 FISMA reporting requirements, we evaluated the NIST certification and
accreditation for the Application Systems and Databases system (NIST 183-06).
Security certification and accreditation packages contain three elements, which form the basis
of an authorizing official’s decision to accredit a system.

    •   The system security plan describes the system, the requirements for security
        controls, and the details of how the requirements are being met. The security plan
        provides a basis for assessing security controls and also includes other documents
        such as the system risk assessment and contingency plan, per Department policy.
    •   The security assessment report presents the results of the security assessment
        and recommendations for correcting control deficiencies or mitigating identified
        vulnerabilities. This report is prepared by the certification agent.
    •   The plan of action & milestones is based on the results of the security assessment.
        It documents actions taken or planned to address remaining vulnerabilities in the
        system.

Commerce’s IT Security Program Policy and Minimum Implementation Standards requires
that C&A packages contain a certification documentation package of supporting evidence of
the adequacy of the security assessment. Two important components of this documentation
are:

    •   The certification test plan, which documents the scope and procedures for testing
        (assessing) the system’s ability to meet control requirements.
    •   The certification test results, which is the raw data collected during the
        assessment.

To evaluate the certification and accreditation, we reviewed all components of the C&A
package and interviewed NIST staff to clarify any apparent omissions or discrepancies in the
documentation and gain further insight on the extent of the security assessment. We
evaluated the assessment results for a targeted set of security controls and will give
substantial weight to the evidence that supports the rigor of the security assessment when
reporting our findings to OMB. (See appendix B for the controls we evaluated.) To evaluate
the system security plans, we reviewed all required security controls to determine whether
and to what extent the certification team’s role in developing the plans had any significant
negative effects. In our initial review, we found that assessment results for some controls
implemented by other systems had not been properly documented. In this regard we
expanded our scope by looking at all required controls to identify those that were provided by
other systems and whether they had been assessed and included in the C&A package.

In addition, we performed our own assessments of the same control set we used to evaluate
NIST’s control assessments (appendix B), with the exception of control PL-5 Privacy Impact
Assessment. We conducted our assessment using a subset of procedures from NIST SP
800-53A, which we tailored to ASD’s specific control implementations. We did not attempt to
perform a complete assessment of each control; instead we chose to focus on specific
technical and operational elements.

We assessed controls on key classes of IT components (in this system, applications),
choosing a targeted set of components from each class that would allow for direct
comparison with NIST’s certification test results. We assessed control implementations on the
seven                     , and controls for the
                                                    . In addition, we examined the security plan
descriptions, including related policy documents, and interviewed appropriate NIST

                                            Page 31
                                OIG FY 2009 FISMA Assessment


personnel.

Our assessments included the following activities:

    •	   Extraction, examination, and verification of system configurations
    •	   Generation of system events and examination of system logs
    •	   Execution of NIST-developed scripts and DISA checklists
    •	   Addition, modification, and deletion of accounts

Our assessment was limited in scope and should not be interpreted as the comprehensive
review that a security certification for a             system would require. However, our
assessments gave us direct assurance of the status of select aspects of important system
controls and provided meaningful comparison to NIST’s security certification.

We used the following review criteria:
   •	 Federal Information Security Management Act of 2002 (FISMA)
   •	 U.S. Department of Commerce IT Security Program Policy and Minimum 

      Implementation Standards, June 30, 2005 

   •	 NIST’s Federal Information Processing Standards (FIPS)
           o	 Publication 199, Standards for Security Categorization of Federal Information
                and Information Systems
           o	 Publication 200, Minimum Security Requirements for Federal Information and
                Information Systems
   •	 NIST Special Publications:
           o	 800-18, Guide for Developing Security Plans for Information Technology
                Systems
           o	 800-37, Guide for the Security Certification and Accreditation of Federal
                Information Systems
           o	 800-53, Recommended Security Controls for Federal Information Systems
           o	 800-53A Guide for Assessing the Security Controls in Federal Information
                Systems
           o	 800-70, Security Configuration Checklists Program for IT Products
           o	 800-115, Technical Guide to Information Security Testing and Assessment

We conducted our evaluation in accordance with the Inspector General Act of 1978, as
amended, and the Quality Standards for Inspections (rev. January 2005) issued by the
President’s Council on Integrity and Efficiency.




                                            Page 32
                            OIG FY 2009 FISMA Assessment



Appendix B: NIST SP 800-53 Security Controls Evaluated During OIG
Review of ASD

  •   Account Management (AC-2)
  •   Separation of Duties (AC-5)
  •   Unsuccessful Login Attempts (AC-7)
  •   Auditable Events (AU-2)
  •   Audit Storage Capacity (AU-4)
  •   Response to Audit Processing Failures (AU-5)
  •   Audit Monitoring, Analysis and Reporting (AU-6)
  •   Time Stamps (AU-8)
  •   Protection of Audit Information (AU-9)
  •   Configuration Settings (CM-6)
  •   Information System Backup (CP-9)
  •   User Identification and Authentication (IA-2)
  •   Authenticator Management          (IA-5)
  •   Privacy Impact Assessment (PL-5)
  •   Vulnerability Scanning (RA-5)
  •   Flaw Remediation (SI-2)




                                        Page 33
                                                    UNITED STATES DEPARTMENT OF COMMERCE

                                                    National Institute of Standards and Tschnology

                                                    Gaithersburg. Maryland 20899-OXJ1
                                                    OFFICE OF THE DIRECTOR



JUL 10 2009


MEMORANDUM FOR Allen Crawley
               Assistant Inspector General for
                  Systems Acquisition and IT Security

From:         Patrick Gallagher
              Deputy Director
                                    ~'c:.;l:.A. ~~L
Subject:      NIST Comments in R sponse to Draft nspection Report No. OSE-19512 Entitled
              "FY 2009 FISMA Assessment Application Systems and Databases" (NIST 183­
              06), Draft Inspection Report No. OSE-19512

I would like to thank you for the opportunity to comment on your Draft Inspection Report No.
OSE-19512, entitled "FY 2009 FISMA Assessment Application Systems and Databases" (NIST
183-06). In addition, I would like to compliment you on the thoroughness of your review.

NIST concurs with the majority of recommendations made in your draft report, and I assure you
we will take all steps necessary to implement your recommendations. In the few cases where
NIST does not fully concur with your recommendations, we have suggested that the language of
the recommendation be changed, or we note that the recommendation is no longer appropriate
due to changes in systems administration or configuration. NIST comments on the draft
inspection report are found in the attachment to this letter.

Again, I would like to thank you for the opportunity to comment on this draft report, and assure
you that NIST will implement your recommendations as soon a possible. If you have any
questions concerning this response, please contact Stephen Willett on (301) 975-8707. Your
efforts to improve NIST systems security are greatly appreciated.

Attachment




                                                                                        NISr

1. Revised System Security Plan Was Generally Adequate, but Security Planning Process Needs Improvement

Recommendations
NIST should ensure that 

1.1 the security control descriptions in the SSP are accurate and complete; and
1.2 waivers or special authorizations are obtained and documented in accordance with Department policy.

NIST Response
        NIST concurs with these findings and these recommendations, with the exception of deviations documented in red in this
        section (Page 2). See below for detailed responses.

                                OIG Documented Deficiency 
                                                                                              Remediation Plan / Justification 
                              The initial security plan did not include major software        NIST will ensure that future initial SSPs will provide sufficient 
                              components:                                                     detail before continuing with the C&A process.  These 
                                                                                              deficiencies were fixed in the final SSP submission. 
                              No control enhancements required for the system were
                              described.
The initial system security   Several controls were not accurately or completely described.
plan did not fully address    See Table 1.
controls for the parent       Several controls for an application          were not
system and omitted            described.
subsystems altogether.        Common and hybrid controls were not correctly identified.
                              A hardware server was removed from the accreditation
                              boundary sometime during the security certification (system
                              now consists of software only). NIST SP 800-37, Guide for
                              the Security Certification and Accreditation of Federal
                              Information Systems, calls for accreditation boundaries to be
                              established before the certification phase begins.




1 

 
                               NIST told us that the system security officer and other              NIST does not concur with this finding.  While the NIST 
                               administrators participated in the development of the final
                                                                                                    certification team member provided assistance by rewriting 
                               plans. However, the certification team’s authorship of the
                               security plans raises the possibility that security control          some parts of the security documentation, the requirements, 
Along with assessing           requirements were solely based on security settings and              were defined, reviewed and approved by the SSO and System 
controls, NIST certification   implementations discovered during control assessments
                                                                                                    Owner (SO), prior to the presentation of the package to the 
team members rewrote           rather than a risk-based process to determine the necessary
the parent security plan       protections for information in ASD. In fact, many control            Authorizing Official (AO) for the final accreditation decision.   
and created new                descriptions in the revised security plan are direct quotes from
subsystem security plans       the control assessment.
that served as the basis       Scoping and tailoring control requirements should be driven
for the accreditation          by consideration of risk to the confidentiality, integrity, and
decision.                      availability of the information in the system. While certification
                               teams should consult with system owners about the adequacy
                               of the security plan, it is the system owner’s role to maintain
                               the plan based on input from various managers with system
                               responsibilities.
Revised system security                                                                             See Table 2, Pages 10 through 13. 
plans generally addressed
all required elements of
the NIST SP 800-53
controls for each system
component. However,
some control descriptions
need improvement. (See
table 2.)
 

                                   




2 

 
2. Secure Configuration Settings Were Not Established for All IT Products

Recommendations
NIST should ensure that 

2.1 ensure that secure configuration settings are established, implemented, and assessed for all IT products in the system accreditation boundary in
     	




    accordance with NIST SP 800-70, Security Configuration Checklists Program for IT Products;
2.2 tailor the NIST       secure configuration checklist to the specific operational
     	




    requirements of ASD;
2.3 only close POA&M items after validation testing or examination demonstrates that the planned remedial action(s) succeeded; and
     	 	




2.4 create a new POA&M item to track the remediation of           vulnerabilities in the databases

NIST Response
           NIST concurs with these findings and these recommendations, with the exception of deviations documented in red in Table 5,
           Page 20. See below for detailed responses.

                                   OIG Documented Deficiency 
                                                                                                        Remediation Plan / Justification
                                                                                                        See Tables 3 through 5, Pages 14 through 21. 
                                                 have standardized secure configuration checklists
                              available. (Checklists provide predefined secure configuration
                              settings that can be used to establish system specific settings.)
                              NIST explained that a program-level POA&M exists to address the           NIST will ensure that future program‐level POA&Ms that 
                              need to develop secure configuration checklists for applications.         have such a broad scope are fully reviewed for 
                              However, this POA&M (#26334 in CSAM) was closed June 30,
Secure configuration                                                                                    completeness before being marked as complete.   
                              2008, without developing any additional secure configuration
settings were established
for the                       checklists applicable to ASD applications.
but not for other             To illustrate the importance of utilizing secure configuration            See Table 3, Pages 14 through 16. 
significant applications in   checklists we assessed configuration settings for two of the
the system.                   system’s	                                                       against
                              the Defense Information Systems Agency’s (DISA)
                                                 security checklist. We selected 24 technical
                              settings with significant impact (DISA’s category
                              1 or 21) from the checklist.
                                   •                results included 10 category 2 vulnerabilities.
                                   •	               results included 8 category 2 vulnerabilities.
                                       (See table 3).



3 

 
                           These vulnerabilities might have been resolved if a secure                       See Tables 3 through 5, Pages 14 through 21. 
                           configuration checklist were implemented for this application. (It is




                                                                                                     
 

                           also possible that remediation of some vulnerabilities may prevent
                           the successful operation of the legacy applications, but that risk




                                                                                               

                           should be identified and appropriately considered according to the




                                                                                                     
 

                           methodology in NIST SP 800-70, Security Configuration Checklists
                           Program for IT Products – Guidance for Checklists Users and




                                                                                               

                           Developers.)

                           NIST has a secure configuration checklist for        that serves as
             A POA&M (CSAM POA&M 34348) has been created to 
                           an enterprisewide standard. However, NIST told us that prior to
                                                                                                            document and implement a tailored secure 
                           assessment, the checklist had not been tailored to the system-
The NIST                   specific requirements of ASD.                                                    configuration guide for        .  NIST identifies secure 
          secure
configuration checklist2   NIST’s certification team, along with system administrators,
                                                                                                            configuration guides for applications when they exist 
was not tailored for the   determined the appropriate settings for the sample of databases                  and customize them for each situation, depending on 
ASD                        assessed. However, configuration settings for other databases in                 functional requirements.  
system.                    the system need to be established and documented. This activity,
                           part of tailoring security control requirements, is the responsibility of
                                                                                                             
                           the system owner.
The description,           CM-2 requires the creation of a baseline configuration that                      See Table 2, CM‐2 row, Page 11. 
assessment, and            describes the makeup of each component and its logical placement
remediation of             within the information system.
configuration settings
                           Configuration Settings (CM-6) is the appropriate control. It requires
were inappropriately
                           the establishment, configuration, documentation, and enforcement
assigned to security




                                                                                                     

                           of configuration settings to the most restrictive mode consistent with

control Baseline
                           operational requirements.
Configuration (CM-2).
                                                      





                           During the certification process, NIST added an action item to its               In the future, sufficient evidence will be collected before 
                           POA&M (CSAM #26134) to address vulnerabilities identified during
                                                                                                            marking a POA&M as complete.  
                           the assessment of secure configuration settings. The item directs




                                                                                                  
 

                           that “staff apply the NIST        Secure Configuration Guidelines
                           consistently among all databases by 9/30/2008.” This POA&M item




                                                                                                      

                           was marked completed on September 2, 2008. NIST OCIO

configuration
                           indicated it completed the POA&M based on staff response to a
vulnerabilities were not
                           status request and that validation testing will be performed at a later
adequately remediated.
                           date, as part of continuous monitoring activities. However, Appendix
                           E of the Department’s IT Security Program Policy and Minimum                 

                                                                                               
 


                           Implementation Standards requires the ITSO to have tested the
                           POA&M item’s implementation before categorizing the item as
                                                                                              





                           complete.
                                     





4 

 
     We assessed 86 of NIST’s defined configuration settings for            See Table 4, Pages 17 through 19. 
     NIST had identified 33 improperly applied settings in its own
     assessment. Of these 33, we found that 22 were properly applied in
     the databases we assessed. The remaining 11 improper settings
     NIST identified were present on one or more databases included in
     our assessment. (See table4.)
                                                                            Two issues were identified that resulted in inconsistent 
                                                                            configuration settings. 

                                                                                1.                                                    
                                                                                                                                                          
     We also found 3 configuration settings (listed below) that NIST had
                                                                                                                                  
     marked as “Satisfied” because “the database administrator changed                                                                                     
     the setting” to the correct value, implying that the change had been                                                                         
     made at the time of the assessment. These settings were either not
     successfully corrected as stated or the incorrect settings were                                                                      
     reintroduced following the change.                                                                                                                        
         •
                                                                                                                                                                   
                                                                                                                                              
            •
                                                                                                                                  
            •                                                                                                                                                  
                                                                                                                                      
                                                                                                                                                               
                                                                                                                                                      
                                                                                                                              
                                                                                                                          

     We also found 6 improper settings NIST did not identify in its         See Table 5, Pages 20 through 21. 
     security certification. (See table 5.)
         




5 

 
3. Control Assessments Produced Reliable Information for Assessing Risk, but Some Minor Improvements Are Needed

Recommendations
NIST should ensure that assessments 

3.1 reassess the controls listed in table 6 as part of continuous monitoring; and
3.2 present assessment results for controls provided by other systems, as identified in table 7, to the authorizing official.

NIST Response
        NIST concurs with these findings and these recommendations, with the exception of deviations documented in red in Table 6,
        Page 22. See below for detailed responses.


                                                                                                                  Remediation Plan / Justification 
                            OIG Documented Deficiency
                                                                                                     See Table 6, Pages 22 through 25. 
Three control assessments were not
sufficient to assess security control
implementations. (See table 6.)

Assessment results and analysis for some                                                             See Table 7, Page 26. 
controls provided by other systems were not
                                                  The ASD system inherits remaining
included in certification assessments. As a
                                                  vulnerabilities related to controls provided by
result, potential risk associated with these
                                                  other systems.
controls was not properly identified. (See
table 7.).
 

                                   




6 

 
4. OIG Assessments Found Vulnerabilities Requiring Remediation

Recommendations
NIST should 

4.1  NIST should ensure the vulnerabilities identified in table 8 are added to the system’s
POA&M and remediated during continuous monitoring.

NIST Response
        NIST concurs with these findings and these recommendations. See below for detailed responses.

                                                                                                     Remediation Plan / Justification 
                   OIG Documented Deficiency
                                                                                 See Table 8, Pages 27 through 29. 




OIG assessments identified
several vulnerabilities that
need to be addressed. (See
table 8 for details.) These
vulnerabilities include the
following:




 




7 

 
                                                      Appendix: Tables
 
Table 1. Deficiencies in Initial Security Plan 
Deficiency                            Controls             Remediation Plan/Justification 
Controls not accurately or                                 NIST will ensure that future initial SSPs will provide sufficient detail before 
completely described                                       continuing with the Certification and Accreditation (C&A) process.  These 
                                                           deficiencies were fixed in the final SSP submission. 


Controls for        application
not described




Common and hybrid controls not
correctly identified




                                                   
                                   

8 

 
Table 2. Deficiencies in Revised Security Plan

Control    Security Plan Description (excerpts)    OIG Comments   Remediation Plan/ Justification 

                                                                                                                        
                                                                                                                         
                                                                                                                

                                                                                                          

                                                                                                                             
                                                                                                                    
                                                                                   

                                                                                                                             
                                                                                                  

                                                                   



                                                                                                          
                                                                                             




                                                                                                                             
                                                                                                      
                                                                               

                                                                                                                         
                                                                                         



9 

 
                
            

       




                    
           




10 

 
                   
               




                       
           




       




11 

 
               
           




 

       




12 

 
Table 3                      Vulnerabilities 

DISA Vuln Key    DISA Required Setting     OIG Assessment Results    OIG Comments            Remediation Plan / Justification 

                                                                                                                                            
                                                                                                                                                  
                                                                                                                                        
                                                                                                                                                  
                                                                                                                                                   
                                                                                                                                                  
                                                                                                                                    
                                                 




           

                      




                                                                                      

           




                                                                                          


13 

 
       



               




                   

       




                       


       



           




14 

 
       


                                   

                       

                                       

       




           




                               

       
                   



                           


 

               




15 

 
Table 4: Persistent Improper Settings in

Checklist  NIST Requirement (Full Quotation)    OIG Assessment Results       Remediation Plan / Justification 
Check # 

                                                                                                                          
                                                                                                                                          
                                                                                                                              
                                                                                                                                      
                                                                                                                  

                                                                                                                                  
                                                                                                
                                                                   

         
                                                             

         
                                                                          

         
                                                                  

                                                                                                                      
                                                                                                                                  




                                                                                                                                  


16 

 
             




                      
             




                 
                          




                      
                              
                      
                     
                             

                      
             




17 

 
 

       




18 

 
Table 5. Additional Improper Settings in

Checklist   NIST Requirement (Full Quotation)    OIG Assessment Results       Remediation Plan / Justification 
Check #

                                                                                                                                           
                                                                                                                                                   
                                                                                                                                                       
                                                                                                                                   
                                                                                                                                    
                                                                                                                   
                                                                           

                                                                                                                                                       
                                                                                                                                       
                                                                                                                                                       
                                                                                                  

                                                                                                                                                       
                                                                                                                                               
                                                                                                                               
                                                                                                                           
                                                                                              

                                                                                                                                               
                                                                                                                       

                                                                                                                               
                                                                                                                                   
                                                                                       




19 

 
                       
                   




       




           

       




               

20 

 
Table 6. NIST Security Control Assessment Deficiencies

Control  NIST Assessment     NIST Assessment Results (Full   OIG Comments   Remediation Plan / Justification 
         Procedure (Full     Quotation) 
         Quotation) 

                                                                                                                                                                  
                                                                                                                                                          
 
                                                                                                                                              
                                                                                                                      
                                                                                                                                                          
                                                                                                                                          
                                                                                                                                                  
                                                                                                                                                      
                                                                                                                                      
                                                                                                                              
                                                                                                       

                                                                                                                                  
                                                                                                                 

                                                                                                                                                                      
                                                                                                                                                  
                                                                                                                                                          
                                                                                                                                                              
                                                                                                                                                                      
                                                                                                                          
                                                                                                                                                  
                                                                                              

                                                                                                                                                          
                                                                                                                                              
                                                                                                                                                       
                                                                                                                                                                  
21 

 
                                 
                                     
                                 
                                         
                             
                         

                                     
                       
                                     
                   
               



       




           




22 

 
               
           
       




23 

 
           

 

       




24 

 
Table 7. Controls Lacking Results and Supporting Evidence of Assessments for Other Systems 

Control Number             ASD Applications Inheriting    NIST System(s)              Remediation Plan / Justification 
                           Controls                       Implementing the Control 

                                                                                                                               
                                                                                                                           
                                                                                                               
                                           

                                           



                                                                                   

                                           

                                           




 

                             




25 

 
Table 8. Vulnerabilities Identified by OIG Assessment of Selected Security Controls

Control  Vulnerability            System            OIG Assessment Details            Remediation Plan/ Justification 
                                  Component 

                                                                                                                                                                
                                                                                                                                                            
                                                                                                                                                            
                                                                                           

                                                                                                                                                   
                                                                                                                                                        
                                                                                                                                                       
                                                                                                                                       

                                                                                                                                               
                                                                                                                              




                                                                                  

                                                                                                                                           
                                                                                                                                                                
                                                                                                                                                       
                                                                                                                                                   


                                                                                                                                  
                                                                                                                          

                                                                                                                                                   
                                                                                                                                                                
                                                                                                                                       

26 

 
                                                                          
                                                           
                                                                
                                   

                                                                
                                                       
                                                                        
                                               
                                                                    
                                                       
                                                                
                                           
                                                                         

                                                   
                                                                            
                                                            
                                                           
                           

                                                   
                                                                            
                   
                                                                
                                       

                                                                    
                               




27 

 
                           
                                        
                                
                               

                                    
                                        
                       


                   

 




28 

 
